DOE/IG-0516




          AUDIT                    INFORMATION TECHNOLOGY
                                       SUPPORT SERVICES
         REPORT                           CONTRACTS




                                             AUGUST 2001




      U.S. DEPARTMENT OF ENERGY
     OFFICE OF INSPECTOR GENERAL
       OFFICE OF AUDIT SERVICES
                       U. S. DEPARTMENT OF ENERGY
                             Washington, DC 20585

                                  August 23, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Information Technology
                         Support Services Contracts"


BACKGROUND

Over the last several years, there have been a number of substantial changes to the
policies that govern Federal acquisition and information technology management.
Beginning with the enactment of the Government Performance and Results Act of 1993
and continuing with the Clinger-Cohen Act of 1996 (Clinger-Cohen), efforts have been
made to make management of the Federal information technology effort more efficient,
cost-effective, and responsive to the needs of the respective agencies. Within the U.S.
Department of Energy (Department) these reforms were particularly important in light of
its $1.4 billion annual information technology (IT) investment, which includes
investments in research programs such as the Accelerated Strategic Computing Initiative.

During the last three fiscal years, the Department and its primary contractors awarded IT
support service contracts valued at nearly $900 million. The services typically included
activities such as helpdesk and desktop support, server and network technical services,
and database management and administration. To ensure that IT support services are
obtained as efficiently and effectively as possible, Federal procurement authorities are
increasing the emphasis on the use of existing procurement mechanisms that leverage
buying power by permitting aggregation of demand across the Government.

The objective of our audit was to determine whether the Department had a comprehensive
framework for the acquisition of IT support services.

RESULTS OF AUDIT

Despite initiatives sponsored by the Chief Information Officer, the Department was not
effectively managing the acquisition of IT support services. For example, Headquarters
and field elements routinely obtained IT support services without making maximum use
of existing Federal contracts designed for this purpose. When existing contracts were
used, Headquarters program elements did not coordinate or consolidate requirements. For
example, the program elements issued 58 separate task orders against a single contract for
the same or similar services. Despite requirements in the Clinger-Cohen Act,
                                            2


the Department had not developed and implemented a framework for acquiring IT
support services in an efficient and cost-effective manner. Based on its own studies,
significant savings are possible if the Department adopts an enterprise-wide approach to
acquiring IT support services. To be specific, we concluded that savings of as much as
$44 million may be possible over a three year period by adopting a Departmentwide
approach.

The Office of Inspector General advocates full and open competition to acquire IT
support services and other items at the best or lowest price available. While we recognize
that existing contracts may not always provide the best value, the Government's interests
are best served by formally considering such contracts when comparing alternatives.

MANAGEMENT REACTION

Management concurred in principle with our recommendations to develop and implement
a framework and performance measures for the acquisition of IT support services.

Attachment

cc:    Deputy Secretary
       Under Secretary for Energy, Science and Environment
       Administrator, National Nuclear Security Administration
       Acting Chief Information Officer
INFORMATION TECHNOLOGY SUPPORT SERVICES CONTRACTS


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations ...................................................2


                 Comprehensive IT Support Service
                 Acquisition Framework Needed

                 Details of Finding.......................................................................3

                 Recommendations and Comments ...........................................8


                 Appendices

                 1. Scope and Methodology........................................................9

                 2. Related Office of Inspector General Reports .......................11
OVERVIEW

INTRODUCTION AND   Over the last several years, Congress and the Office of Management
OBJECTIVE          and Budget have reformed the laws and policies that govern Federal
                   acquisition and information technology (IT) management. These
                   reforms began with passage of the Government Performance and
                   Results Act of 1993 (GPRA), which required strategic and annual
                   performance plans. They were expanded through Federal Acquisition
                   Regulations (FAR) and were amplified by the Clinger-Cohen Act of
                   1996 (Clinger-Cohen), which provided agencies the flexibility to use
                   existing Federal contracts to acquire information technology more
                   efficiently and effectively. These reforms were particularly important
                   in light of the Department’s $1.4 billion annual information technology
                   investment, which includes significant expenditures for scientific and
                   research related programs such as the Accelerated Strategic Computing
                   Initiative.

                   During the last three fiscal years, the Department of Energy
                   (Department) and its contractors awarded at least $885 million of IT
                   support service contracts. These services typically included activities
                   such as helpdesk and desktop support, server and network technical
                   services, and database management and administration. To obtain
                   information technology support services efficiently and effectively,
                   procurement authorities are placing an increased emphasis on using
                   existing procurement vehicles that leverage buying power by permitting
                   aggregation of demand across the Government.

                   Currently, there are a number of procurement vehicles available by
                   which Federal agencies can take advantage of consolidated buying
                   opportunities to maximize effectiveness of IT investments. The
                   Department's primary method, the Telecommunications Integrator
                   Services (TELIS) contract, was negotiated to provide nationwide
                   telecommunications and integration services for the Department, its
                   contractors, and other Federal agencies. TELIS is an indefinite-
                   delivery, indefinite-quantity contract where prices were established on a
                   firm, fixed-price basis. The contract's value is $600 million, with 20
                   percent open to other Federal Agencies. Other buying opportunities,
                   such as government-wide contracts provided by the Department of
                   Transportation, the General Services Administration and other Federal
                   agencies were also available to the Department for acquiring IT support
                   services.

                   The objective of our audit was to determine whether the Department
                   had a comprehensive framework for the acquisition of IT support
                   services.


Page 1                                                        Introduction and Objective
CONCLUSIONS AND   The Department did not have a comprehensive framework for acquiring
OBSERVATIONS      IT support services. Despite Chief Information Officer (CIO)
                  sponsored initiatives, the Department was not effectively managing the
                  acquisition of IT support services. For example, Headquarters and field
                  elements routinely resorted to open-market procurements without
                  formally considering the use of existing Federal contracts. When
                  existing contracts were used, Headquarters program elements did not
                  coordinate or consolidate requirements and issued 58 separate task
                  orders against a single contract for the same or similar services.
                  Despite Clinger-Cohen requirements, the Department had not
                  developed and implemented a framework for acquiring IT support
                  services in an efficient and cost-effective manner. Based on
                  Departmental studies, significant savings may be possible by adopting
                  an enterprise-wide approach to acquiring IT support services. At
                  Headquarters, the cost for such services may be up to $16 million more
                  than similarly sized Federal organizations. Savings of as much as $44
                  million may be possible over a three year period by adopting a
                  Departmentwide approach.

                  The audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.




                                                               Signed
                                                      Office of Inspector General




Page 2                                                 Conclusions and Observations
COMPREHENSIVE IT SUPPORT SERVICE ACQUISITION FRAMEWORK
NEEDED


Acquisition        The Department had not developed and implemented a comprehensive
Framework          framework for the effective management of IT support services
                   acquisitions. Headquarters and field elements did not consolidate
                   requirements and routinely resorted to open-market procurements
                   without formally considering the use of existing Federal contracts.
                   When existing contracts were used, Headquarters program elements did
                   not coordinate or consolidate requirements and issued 58 separate task
                   orders against a single contract for the same or similar services. Despite
                   the potential to substantially reduce IT support service costs, the
                   Department did not require the use of existing Federal contracts where
                   appropriate.

                                  Open-Market Acquisitions at Headquarters

                   Despite the availability of the TELIS contract and FAR preferences for
                   using existing Federal contracts, some Program Offices resorted to
                   open-market acquisitions of IT support services. During the three year
                   period under review, Headquarters used open-market vendors to acquire
                   IT support services valued at about $556 million. For example, five of
                   the largest Headquarters organizations, the Offices of Civilian
                   Radioactive Waste Management; Environment, Safety and Health;
                   Energy Information Administration; Science; and the National Nuclear
                   Security Administration negotiated and awarded separate open-market
                   contracts for IT support services. While certain program officials
                   indicated that they considered using existing contracts, they could not
                   provide evidence of formal analysis to support decisions not to use an
                   existing Federal contract.

                      Open-Market Acquisitions of Operations Offices and Contractors

                   Operations Offices and contractors made minimal use of existing
                   Federal contracts such as multi-agency agreements or Federal Supply
                   Schedule contracts when acquiring IT support services. Even though
                   the TELIS and other existing Federal contractors were available for use,
                   Operations Offices and contractors used open-market vendors to acquire
                   at least $329 million in IT support services. Use of TELIS, the
                   Department's preferred source, was also limited and accounted for only
                   3.3 percent of awards made in Fiscal Years (FY) 1997 through 2000. In
                   general, field elements could not furnish documentation or justification
                   supporting decisions to use open-market sources. Examples of the
                   extent of such acquisitions are detailed in the following table:




Page 3                                                                  Details of Finding
           OPERATIONS OFFICES/CONTRACTORS OPEN-MARKET
                           ACQUISITIONS


             Organization               Scope of Work             Award Value
                                                                   (millions)

         BWXT Y-12             Various IT Support Services             $87
         Sandia National       IT Support Services, (6)                $44
         Labs                  contracts
         UT Battelle           Various IT Support Services             $28
         Bechtel Jacobs Co.    Other IT Support Services               $25
         Westinghouse       Computer Lease/Services                    $25
         Savannah River Co.

         Oak Ridge             IT Support Services, (2)                $21
         Operations Office     contracts

         Bechtel Nevada        Various IT Support Services             $4.5

         Although a number of organizations indicated they chose open-market
         acquisitions because they believed that existing Federal contracts could
         not meet their needs, none were able to furnish documentation to
         support such decisions. For example, Westinghouse Savannah River
         Company did not formally document that it could not obtain the service
         portion of a leasing contract by using an existing Federal contract, and
         Sandia National Laboratories (Sandia) believed that its buyers
         intuitively knew what companies were able to supply Sandia's needs.
         Although a formal analysis was not prepared to support its assumption,
         the Oak Ridge Operations Office chose not to use an existing Federal
         contract because it believed that it would be difficult to re-employ IT
         workers displaced by a prime contract change.

         Headquarters IT Support Services Acquisitions Were Not Consolidated

         Even though the Department realized that economies of scale were
         available, program elements were not required to consolidate
         requirements for the same or similar services. For example, six
         program offices were using 33 separate task orders for establishing 33
         separate computer helpdesk support functions. One program office had
         11 different task orders under TELIS for 11 different helpdesk support
         functions. In total, Headquarters elements maintained at least 58


Page 4                                                      Details of Finding
                       different task orders that provided computer helpdesk support. As
                       documented in studies sponsored by the CIO and the Office of Defense
                       Programs, consolidation of these tasks had the potential to reduce costs
                       significantly.


IT Investment and      Clinger-Cohen requires a comprehensive IT investment strategy and
Acquisition Guidance   provides agencies with the flexibility to acquire IT services more
                       efficiently and effectively by using existing Federal contracts. The use
                       of Federal contracts permits aggregation of agency demand to
                       encourage vendors to offer the best possible prices. In addition, the
                       FAR establishes a preference for using Government-wide Acquisition
                       Contracts or other existing contracts. Satisfying requirements through
                       existing contracts is preferable to open-market purchases because
                       ordering from a competitively awarded existing contract is generally
                       more cost effective than establishing a new contract.

                                           The Clinger-Cohen Act of 1996

                       Clinger-Cohen requires a comprehensive IT investment strategy and
                       envisioned that the Department’s CIO would develop policy and
                       procedures to ensure efficient and effective IT investment and control.
                       Consistent with that goal, the CIO was tasked with monitoring cost,
                       schedule, and performance issues of all Departmental IT investments
                       and reporting any problem areas to the Secretary. In addition, Clinger-
                       Cohen specifically stated that an executive agency may enter into a
                       contract that provided for multi-agency acquisitions of information
                       technology. Consequently, Clinger-Cohen allowed agencies the
                       flexibility to acquire information technology efficiently and effectively
                       by using existing Federal contracts that permitted the aggregation of
                       agency demand, thus encouraging vendors to offer the best possible
                       prices.

                                           Federal Acquisition Regulations

                       The FAR established a preference for using Government-wide
                       Acquisition Contracts or other existing Federal contracts because they
                       were generally more cost effective than establishing new contracts. The
                       FAR also established priorities for the acquisition of supplies and
                       services from Government supply sources. As such, the Federal Supply
                       Schedule was the preferred source for the acquisition of IT. In addition
                       to preferred sources, IT investment requirements could be satisfied




Page 5                                                                      Details of Finding
                            through existing contracts, which were preferable to open-market
                            purchases. In fact, the FAR established a preference for using existing
                            indefinite-delivery, indefinite-quantity contracts or other existing
                            Federal contracts if preferred sources were not available. The FAR
                            noted that ordering from a competitively awarded existing contract
                            would, in nearly all cases, be more cost effective than establishing a
                            new contract.


Organizations Not           Despite Clinger-Cohen requirements, the Department had not
Required to Consolidate     developed and implemented a comprehensive framework for acquiring
or Use Existing Contracts   IT support services in a cost effective and efficient manner.
                            Specifically, the Department had not established requirements for
                            Headquarters program offices to consolidate the acquisition of IT
                            support services and for all Departmental organizations, including
                            contractors, to formally consider the use of existing Federal contracts
                            when acquiring IT support services. The lack of specific, focused
                            performance measures also may have contributed to the problems
                            observed during our audit.

                                           Consolidation of Need Was Not Required

                            The Department had not established a framework for acquiring IT
                            support services that included procedures to require Departmental and
                            contractor elements to consolidate the acquisition of IT support
                            services. The CIO's FY 2000 Total Cost of Ownership study
                            acknowledged that management of IT support services across the
                            Department was ineffective in that progress in developing a
                            comprehensive acquisition framework was limited. The Department
                            was also aware of the need to consolidate IT support service needs
                            based upon the contents of A Common Information Technology
                            Infrastructure Services pilot study completed by the Office of Defense
                            Programs in July 2000. Contrary to relying upon the many task orders
                            under TELIS to provide IT support services, this study recognized that
                            opportunities existed for both cost and performance improvements by
                            managing services, including user helpdesk support services, through a
                            master task order.




Page 6                                                                         Details of Finding
                               Analysis Not Required for Open-Market Acquisitions

                      While the Department had taken some action to consolidate IT
                      acquisitions by initiating the TELIS contract, the effectiveness of this
                      CIO sponsored initiative was limited. Even though the Department
                      recognized the potential for significant savings from aggregating
                      demand, it did not require Departmental and contractor officials to
                      formally determine the cost effectiveness of using TELIS or other
                      existing Federal contracts prior to using open-market procurements. As
                      a consequence, most Departmental IT support services were acquired on
                      the open market and most likely detracted from the Department’s ability
                      to satisfy Clinger-Cohen requirements to maximize value in IT
                      acquisitions.

                                                Performance Goals

                      While the Department had developed high-level performance goals with
                      respect to the overall management of IT investments, specific
                      performance goals related to the cost effective acquisition of IT support
                      services were not established as required by GPRA. GPRA requires
                      Federal agencies to establish clear and measurable performance goals
                      for all critical programs. Without specific goals, the Department lacked
                      a basis to measure and demonstrate its performance in this highly
                      sensitive area.


Significant Savings   Use of existing Federal procurement opportunities and the coordination
Opportunities Lost    and consolidation of requirements has the potential for significant
                      savings. As indicated by the CIO sponsored Total Cost of Ownership
                      study, Headquarters' IT support costs were at least $16 million more
                      than similarly sized Federal agencies. This CIO sponsored study
                      revealed that most Headquarters programs substantially exceeded the
                      $1,597 per user benchmark for annual operations cost, some by as much
                      as 1000 percent. The benchmark was based on data from a wide
                      spectrum of organizations of similar size and IT environment
                      complexity, and typically included the cost of providing helpdesk,
                      technical, backup, recovery and operating system support.

                      As demonstrated by the Information Technology Enterprise Integration
                      Assessment, a consolidated enterprise-wide approach to IT support
                      services could save the Department as much as $44 million. The
                      Defense Programs study found there were benefits to be derived from



Page 7                                                                    Details of Finding
                   complex-wide integration of IT activities at various Defense Programs
                   sites. The benefits included cost avoidance in duplication of effort and
                   in leveraging enterprise assets. The study concluded that an enterprise-
                   wide approach was likely to produce a benefit exceeding 5-percent of
                   the current contract values. Assuming that IT support services
                   expenditures do not increase significantly, adopting an enterprise-wide
                   approach could result in savings of up to $44 million over the next three
                   years. ($865m x 5 percent).


RECOMMENDATIONS    To meet the provisions of the Clinger-Cohen Act and realize significant
                   savings available through the adoption of a comprehensive framework
                   for the acquisition of IT support services, we recommend that the Chief
                   Information Officer, in conjunction with Lead Program Secretarial
                   Officers:


                      1. Develop, document and implement an acquisition framework
                         for IT support services. The framework should include
                         procedures requiring the consolidation of Headquarters IT
                         support services, where appropriate, and should require that all
                         contracting officers perform formal analysis to determine
                         whether using existing Federal contracts are beneficial to the
                         Department when acquiring IT support services.

                      2. Develop performance measures, consistent with GPRA and to
                         better monitor and control costs, including a Departmentwide
                         benchmark for IT support costs, and routinely monitor
                         performance against the benchmark


MANAGEMENT         Management concurred in principle with the recommendations of the
REACTION           draft report. Certain Program Officials believed that sufficient credit
                   was not given in instances where existing contracts were used or for
                   efforts to consolidate requirements. Nonetheless, Management agreed
                   to develop a plan to address the recommendations of the report.


AUDITOR COMMENTS   Management's comments are responsive to our recommendations.
                   Management's Action plan should describe specific actions to be taken
                   and milestones for developing and implementing a framework of the
                   acquisition of IT support services. While we acknowledge that certain
                   organizations were using existing Federal contracts, on the whole,
                   Departmental elements did not routinely and formally consider the use
                   of existing contracts when acquiring IT support services.

Page 8                                             Recommendations and Comments
APPENDIX 1


SCOPE         This audit was performed between September 19, 2000 and May 31,
              2001 at Departmental Headquarters, Washington, D.C. and
              Germantown, Maryland; Oak Ridge Operations Office, BWXT Y-12,
              UT Battelle, and Bechtel Jacobs in Oak Ridge, Tennessee; Savannah
              River Operations Office and Westinghouse Savannah River Company
              in Aiken, South Carolina; Albuquerque Operations Office and Sandia
              National Laboratory in Albuquerque, New Mexico; and the Nevada
              Operations Office and Bechtel Nevada in Las Vegas, Nevada. We
              surveyed IT support service contracts at both Headquarters and the
              Operations Offices. Based upon the survey results, we accumulated
              data on eight Program Offices, four Operations Offices, two national
              laboratories and four contractors. Our audit was limited to business
              related IT support services. The scope of our audit did not include
              telecommunication, video communication, Internet service providers or
              classified computer systems.


METHODOLOGY   To accomplish our objectives, we:


                 •   Reviewed Federal Acquisition Regulations, Departmental
                     Orders, procurement policies and procedures for IT support
                     service acquisitions and IT management guides.

                 •   Reviewed relevant reports by the Office of Inspector General
                     and the General Accounting Office.

                 •   Evaluated the Department's implementation of GPRA related to
                     the establishment of performance measures for the acquisition
                     of IT support services.

                 •   Reviewed the basis for the Common Information Technology
                     Infrastructure Services pilot study, identified the population of
                     Federal IT support contracts and analyzed the total cost of
                     ownership model in the Headquarters FY 2000 Total Cost of
                     Ownership study.

                 •   Identified helpdesk support functions and reviewed contracts,
                     task orders and statements of work for IT support services
                     obtained.




Page 9                                                     Scope and Methodology
             •   Held discussions with program officials from the Offices of the
                 Chief Information Officer, Management and Administration,
                 Defense Programs/National Nuclear Security Administration,
                 Science, Energy Information Administration, Nonproliferation
                 and National Security, Civilian Radioactive Waste Management
                 and Environment, Safety and Health. We also held discussions
                 with various officials and staff at the operations, laboratory and
                 contractor offices.

          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Accordingly, we
          assessed internal controls regarding the acquisition of information
          technology support services. Because our review was limited, it would
          not have necessarily disclosed all internal control deficiencies that may
          have existed at the time of our audit. We did not rely upon computer-
          generated data to accomplish our audit objective. The Office of the
          CIO waived an official exit conference on August 3, 2001.




Page 10                                                             Methodology
APPENDIX 2


                   RELATED OFFICE OF INSPECTOR GENERAL REPORTS


  •   Corporate and Stand-Alone Information Systems Development, (DOE/IG-0485, September 2000).
      The Department has spent at least $38 million developing duplicative information systems. Despite
      efforts to implement several corporate-level applications, duplicative and/or redundant computer
      systems exist or are under development at virtually all organizational levels within the Department.

  •   Commercial Off-The-Shelf Software Acquisition Framework, (DOE/IG-0463, March 2000).
      The Department had not developed and implemented software standards or effectively used
      Departmentwide contracts, which are key components of an acquisition framework.
      Furthermore, the Department could achieve savings of over $38 million by consolidating their
      contracts for commercial-off-shelf desktop software.

  •   In-Vitro Bioassay Services at Department of Energy Facilities, (DOE/IG-0458, February
      2000). The Department's contractors did not obtain bioassay analyses at the lowest prices
      available. Although discounts were available under Departmentwide subcontracts, two of the
      Department's contractors issued their own subcontracts for bioassay analyses with rates that
      were higher than the Departmentwide rates. Also, three contractors paid substantially
      different rates for similar or identical analyses performed by the same subcontractor.

  •   The U.S. Department of Energy's Procurement and Assistance Data System, (DOE/IG-0436,
      January 1999). The Procurement and Assistance Data System (PADS) did not meet user
      needs or comply with current generally accepted system practices. Consequently,
      Departmental offices developed their own systems to meet information needs. The Director,
      Management and Administration, should develop and implement a plan for providing
      procurement and financial assistance information. The planning process should include users
      of procurement and financial assistance information and should ensure that the plan is
      consistent with the Department's IT architecture.

  •   Audit of Controls over the ADP Support Services Contract, (CR-B-97-04, August 1997). The
      Headquarters program offices did not effectively manage the ADP support services contract by fully
      evaluating and controlling costs for Automated Office Systems Support and Local Area Network
      administration (AOSS/LAN) task assignments. This occurred because in all but one instance the
      task assignments were not based on detailed analysis of user requirements and related costs. None
      of the task assignments were benchmarked against best practices from internal or external sources.
      Program Offices relied on available budget and historical contractor staffing levels to determine task
      assignment funding.




Page 11                                                                                     Prior Reports
      •   Followup Audit on the Procurement of Support Services for the Energy Information
          Administration, (CR-B-97-03, May 1997). Energy Information Administration (EIA) and
          Procurement had made little progress toward awarding firm-fixed-price contracts. Much of
          EIA's contract work continued to be recurring in nature, but it had not developed statements of
          work that were appropriate for awarding firm-fixed-price contracts. EIA and Procurement could
          not agree that the requirements of a firm-fixed-price contract had been met for two contracts that
          were subsequently awarded as labor hour contracts. As a result, none of the 14 EIA contracts
          valued at $202 million, which were active in 1996, were firm-fixed-price contracts.

  .




Page 12                                                                                    Prior Reports
                                                                               IG Report No. :DOE/IG-0516

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
